DLD-100
February 18, 2021
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-3099
CALVIN B. LYNCH, Appellant
VS.
SUPERINTENDENT ROCKVIEW SCI, et al.
(E.D. Pa. Civ. No. 5-18-cv-04924)
Present:

JORDAN, KRAUSE, and PHIPPS, Circuit Judges
Submitted are:
1) By the Clerk for possible dismissal due to a jurisdictional defect;
2) Appellant’s jurisdictional response;
3) Appellant’s request for a Certificate of Appealability under 28 U.S.C.
§ 2253(c)(1);
4) Appellees’ response; and
5) Appellant’s reply
in the above-captioned case.
Respectfully,
Clerk

(continued)

NNejkmx A

Re:

Lynch v. Superintendent Rockview SCI, et al.
C.A. No. 20-3099
Page 2

________________________________ ORDER________________ _______________
Appellant’s application for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c). Jurists of reason would not debate that the District Court correctly dismissed
his 28 U.S.C. § 2254 petition for essentially the reasons set forth in its opinion. See
Miller-El v. Cockrell. 537 U.S. 322, 327 (2003); Slack v. McDaniel. 529 U.S. 473, 484
(2000). We note in particular that reasonable jurists would not dispute the resolution of
his claim that there was insufficient evidence in support of his witness-intimidation
conviction. See Jackson v. Virginia, 443 U.S. 307, 319 (1979).
By the Court,

s/ Cheryl Ann Krause
Circuit Judge
Dated: February 24, 2021
CJG/cc:
Calvin B. Lynch
Andrew J. Gonzalez, Esq.
Ronald Eisenberg, Esq.

A True Copy: ° '►js.iift'5

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

A

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

CALVIN B. LYNCH
v.

NO. 18-4924

SUPERINTENDENT GARMAN, et al.

REPORT AND RECOMMENDATION
December 13, 2019

ELIZABETH T. HEY, U.S.M .J.

This is a pro se petition for writ of habeas corpus filed by Calvin B. Lynch
(“Petitioner”), who is currently incarcerated at SCI-Rockview in Bellefonte,
Pennsylvania. For the reasons that follow, I recommend that the petition be denied.
I.

FACTS AND PROCEDURAL HISTORYThis matter arises from Petitioner’s January 2011 bench trial before the Honorable

Dennis E. Reinaker of the Court of Common Pleas of Lancaster County. Commonwealth
v. Lynch. CP-36-CR-0005345-2009 & CP-36-CR-0005350-2009 (Lancaster C.C.P.)
(“the 2009 docket conviction”).1 Judge Reinaker summarized the facts:
On October 10, 2009, the victim in this case [Linda
Romero] was brutally beaten with a baseball bat by
]In a trial earlier the same month on separate charges before Judge Reinaker, a jury
convicted Petitioner of burglary, robbery, and theft by unlawful taking. Commonwealth
v, Lynch, CP-36-CR-0003224-2010 (Lancaster C.C.P.) (“the 2010 docket conviction”).
The present habeas petition raises claims challenging both the 2009 docket conviction
and the 2010 docket conviction. The Honorable Timothy J. Savage severed the claims
challenging the 2009 docket conviction from those challenging the 2010 docket
conviction. See Civ. Action No. 18-3998, Doc. 27. Accordingly, this Report addresses
the claims challenging the 2009 docket convictions, and the claims challenging the 2010
docket conviction are addressed in a separate Report at Civ. Action No. 18-3998.

fc>

[Petitioner] who was her boyfriend and the father of her
children. [N.T. 01/10/11 at 83-84.1 After hitting the victim
with the bat, [Petitioner] choked her until she lost
consciousness. [Id. at 76.] As a result of this assault the
victim sustained a large gash to her head requiring six or
seven stitches, a fractured elbow requiring surgery, bruises to
her neck and arm and cuts on her legs and one of her knees.
[Id. at 83-92.] Just days later, [Petitioner] made two collect
calls to the victim from prison asking her to drop the charges
and not to show up in court to testify. [Id. at 95.] On October
17, 2009, the victim received a handwritten letter from
[Petitioner] asking her to drop the charges or not show up to
testify. [Id. at 99.]
Commonwealth v. Lynch. CP-36-CR-0005345-2009 & CP-36-CR-0005350-2009,
Memorandum Opinion, at 1-2 (Lancaster C.C.P. June 8, 2011) (Doc. 9-2 at 112-14)
(“Trial Ct. Op.”).
The assault-related charges (at number 5350) and the intimidation charge (at
number 5345) were handled together at all stages of the state court procedings, and are
addressed together here. On January 10 and 31, 2011, Judge Reinaker conducted a bench
trial. N.T. 01/10/11 & 01/31/11. Judge Reinaker found Petitioner guilty of first-and
second-degree felony aggravated assault, unlawful restraint, recklessly endangering
another person, possession of a controlled substance, and first-degree felony witness
intimidation. N.T. 01/31/11 at 213: see also Commonwealth v. Lynch. No. 761 MDA
2011, Memorandum, at 4 (Pa. Super. Apr. 30, 2012) (Doc. 9-3 at 89-105) (“Super. Ct.Direct”). On March 24, 2011, Judge Reinaker sentenced Petitioner to consecutive prison
terms of seven and one-half to fifteen years for aggravated assault, one to three years for
unlawful restraint, and six to twelve years for witness intimidation. N.T. 03/24/11 at 3637. Petitioner filed a motion for modification of the sentence, which Judge Reinaker
2

denied. Commonwealth v. Lynch. CP-36-CR-0005345-2009, Post Sentence Motion
(Lancaster C.C.P. Apr. 1, 2011) (Doc. 9-2 at 81-84); Commonwealth v. Lynch. CP-36CR-0005345-2009, Order (Lancaster C.C.P. Apr. 1, 2011) (Doc. 9-2 at 95).
On appeal to the Superior Court, Petitioner argued that the evidence was
insufficient to support his conviction for witness intimidation, challenging both the
finding that he committed the offense and the grading of the offense. Super. Ct.-Direct at
4; Commonwealth v. Lynch. CP-36-CR-0005345-2009 & CP-36-CR-0005350-2009,
Statement of Errors Complained of On Appeal (Lancaster C.C.P. May 20, 2011) (Doc. 92 at 104-05). On April 30, 2012, a divided three-judge panel of the Superior Court
affirmed Petitioner’s conviction for witness intimidation, but vacated and remanded
finding that the offense should have been graded as a misdemeanor of the second degree
rather than a felony of the first degree. Super. Ct.-Direct at 16.
On May 11, 2012, the Commonwealth filed an Application for Reargument, see
Commonwealth v. Lynch, No. 761 MDA 2011, Appellee’s Application for
Reargument/Reconsideration (Pa. Super. May 11, 2012) (Doc. 9-3 at 109-19), which the
Superior Court granted. Commonwealth v. Lynch. No. 761 MDA 2011, Order (Pa.
Super. July 10, 2012) (Doc. 9-3 at 150). On July 29, 2013, a majority of the enbanc
Superior Court issued an opinion affirming the trial court and finding that the evidence
supported Petitioner’s conviction for witness intimidation, graded as a felony of the first
degree. Commonwealth v. Lynch, No. 761 MDA 2011, Opinion (Pa. Super. July 29,
2013) (Doc. 9-4 at 6-16) (“Super. Ct.-Direct II”)/ Petitioner filed a petition for allowance
of appeal in the Pennsylvania Supreme Court, which was denied on February 25,2014.
3

6

Commonwealth v. Lynch. No. 662 MAL 2013, Order (Pa. Feb. 25, 2014) (Doc. 9-4 at
97).
On January 15, 2015, Petitioner filed a pro se petition pursuant to Pennsylvania’s
Post Conviction Relief Act (“PCRA”), 42 Pa. C.S.A. §§ 9541-9551. Commonwealth v.
Lynch. CP-36-CR-0005345-2009 & CP-36-CR-0005350-2009, Motion for Post
Conviction Collateral Relief (Lancaster C.C.P. filed Jan. 15, 2015) (Doc. 9-4 at 99-131).
Appointed counsel filed an amended PCRA petition, claiming trial counsel was
ineffective for (1) advising, inducing and coercing Petitioner to waive his right to a jury
trial, (2) advising Petitioner that his version of events was unbelievable, effectively
inducing him to present false testimony, (3) failing to argue that Petitioner was not guilty
**x .

of aggravated assault as a felony of the first degree,^and (4) failing to move to withdraw
as counsel. Commonwealth v. Lynch. CP-36-CR-0005345-2009 & CP-36-CR-00053502009, Amended Petition for Post-Conviction Relief Under 42 Pa. C.S.A. § 9541
(Lancaster C.C.P. Apr. 17, 2015) (Doc. 9-4 at 135-42) (“Amended PCRA”). Judge
Reinaker conducted a hearing concerning PCRA issues raised in both the 2009 docket
conviction and 2010 docket conviction, see N.T. 07/07/15 at 3, and thereafter denied the
Amended PCRA petition. Commonwealth v. Lynch. CP-36-CR-0005345-2009, CP-36CR-0005350-2009, & CP-36-CR-3224-2010, Memorandum of Opinion (Lancaster
C.C.P. Dec. 28, 2015) (Doc. 9-5 at 37-46) (“PCRA Ct. Op.”); Commonwealth v. Lynch,

4

CP-36-CR-0005345-2009, CP-36-CR-0005350-2009, & CP-36-CR-3224-2010, Order
(Lancaster C.C.P. Jan 6, 2016) (Doc. 9-5 at 48).2
Petitioner appealed to the Superior Court arguing, as to the 2009 docket
conviction, ineffective assistance of counsel (“IAC”) for (1) advising Petitioner to waive
his right to a jury trial, (2) advising Petitioner that his Version of events was unbelievable,
effectively inducing him to present false testimony, and (3) failing to move to withdraw
as counsel. Commonwealth v. Lynch, No. 98 MDA 2016, Memorandum, at 3-4 (Pa.
Super. Aug. 22, 2016) (Doc. 9-6 at 77-86) (“Super. Ct.-PCRA”).3 On August 22, 2016,
the Superior Court issued an opinion affirming the denial of PCRA relief. Id. at 10.
Petitioner filed a petition for allowance of appeal, which the Pennsylvania Supreme Court
denied on January 18, 2017. Commonwealth v, Lynch. No. 620 MAL 2016, Order (Pa:
Jan. 18,2017) (Doc. 9-6 at 87).
Petitioner filed a habeas petition in the United States District Court for the Middle
District of Pennsylvania on February 10, 2017, docketed in that district at Civ. Action
No. 17-319, challenging the 2009 docket co'nviction. See E.D. Pa. Civ. Action No. 183998, Doc. I.4 After the Honorable Robert D. Mariani issued an Order explaining the

2The January 6, 2016 Order corrected aprior Order that referred incorrectly to
Petitioner’s Amended PCRA. See Commonwealth v. Lynch. CP-36-CR-0005345-2009,
CP-36-CR-0005350-2009, & CP-36-CR-3224-2010, Order (Lancaster C.C.P. Dec. 28,
2015) (Doc. 9-5 at 47).
3A fourth IAC claim concerned the 2010 docket conviction, see Super. Ct.-PCRA
at 3, and is therefore addressed in the separate Report in Civ. Action No. 18-3998.
44Although Petitioner’s original petition was docketed in the Middle District on
February 17, 2017, the federal court employs the “mailbox rule,” deeming a filing by a
5

b

strict limitations on the filing of second or subsequent habeas petitions, id. Doc. 6,
Petitioner filed an amended habeas petition, challenging both the 2009 and 2010 docket
convictions. Id Doc. 7; E.D. Pa. Civ. Action No. 18-4924, Doc. 1. On September 14,
2018, the habeas.petition was transferred to this judicial district because the convictions
at issue arose in Lancaster County, which lies in this court’s jurisdiction. See E.D. Pa.
Civ. Action No. 18-3998, Docs. 12 & 13; 28 U.S.C. § 118(a).
Judge Savage referred the matter to me for a Report and Recommendation. E.D.
Pa. Civ. Action No. 18-3998, Doc. 16. Petitioner subsequently made clear that his habeas
petition attacked “two separate convictions deriving from two separate trials,” id Doc. 18
H 4, and review of the state court docket sheets confirmed that although he was sentenced
on the same day-for the 2009 and 2010 docket convictions, Petitioner.'flled separate direct
appeals and separate PCRA petitions in the state court. Also, although some of the state
court rulings address both convictions, the cases were never formally consolidated.
Accordingly, I recommended that claims challenging the 2009 docket conviction be
severed from those challenging the 2010 docket conviction, see id. Doc. 20, and Judge
Savage subsequently severed the claims, directed the clerk of court to open the present
habeas petition challenging the 2009 docket conviction, and referred both petitions to me
for separate Reports. Id. Doc. 27; E.D. Pa. Civ. Action No. 18-4924, Doc. 3.

pro se petitioner filed when given to prison authorities for mailing. Burns v. Morton. 134
F.3d 109, 113 (3d Cir. 1998) (citing Houston v. Lack. 487 U.S. 266 (1988)). Petitioner
declared in his original petition that he placed it into the prison mail system on February
10, 2017, see Civil Action No. 18-3998, Doc. 1 at 15, and I accept that as his filing date.

6

Following referral of the newly-severed challenge to the 2009 docket conviction,
Petitioner filed a memorandum of law (Doc. 8), the District Attorney filed a response
arguing that the various claims are either procedurally defaulted or meritless (Doc. 9),
and Petitioner filed a reply (Doc. 12).5
H.

LEGAL STANDARDS6
A.

Exhaustion and Procedural Default

Before the federal court can consider the merits of a habeas claim, Petitioner must
comply with the exhaustion requirement of section 2254(b), by giving “the state courts
one full opportunity to resolve any constitutional issues by invoking one complete round
of the State’s established appellate review process.” O’Sullivan v. Boerckel, 526 U.S.
; 838, 845 (1999). The doctrine of procedural default is closely related to the exhaustion,
requirement. It is not enough that Petitioner present his claims to the state court; he must
also comply with the state’s procedural rules in doing so, thereby giving the state courts a

5Citations to the parties’ filings will be to the court’s EOF pagination.
6The petition is timely. The District Attorney argues at one point that the petition
is “patently untimely,” but elsewhere concedes that it is timely, albeit based upon an
erroneous calculation. Doc. 9 at 12, 14-15. Petitioner’s conviction became fmal on
Tuesday, May 27, 2014 (one day after the Memorial Day holiday), when the time expired
for seeking certiorari in his direct appeal. See Gonzalez v. Thaler, 565 U.S. 134 (2012);
Sup. Ct. R. 13.1 (providing 90 days to file timely petition for writ of certiorari).
Petitioner filed a PCRA petition 233 days later, tolling the habeas limitations period, see
28 U.S.C. § 2244(d)(2) (excluding time during which a properly filed state post­
conviction petition is pending), which resumed running on January 18, 2017, when the
Pennsylvania Supreme Court denied allowance of appeal. See Stokes v. Dist. Att’y of
Philadelphia, 247 F.3d 539 (3d Cir. 2001) (habeas limitations period not tolled for 90
days following state supreme court denial of post-conviction relief). With 132 days
remaining, Petitioner’s habeas filing 23 days later, on February 10, 2017, is timely.

7

full and fair opportunity to address them. A failure to do so results in a procedural
default. Coleman v. Thompson. 501 U.S. 722, 750 (1991).
[A] state prisoner’s habeas claims may not be entertained by a
federal court “when (1) ‘a state court has declined to address
those claims because the prisoner had failed to meet a state
procedural requirement,’ and (2) ‘the state judgment rests on
independent and adequate state procedural grounds.”’ Walker v.
Martin. 562 U.S. [307, 316] (2011) (quoting Coleman. 501 U.S.
at 729-30).
Maples v. Thomas. 565 U.S. 268, 280 (2012); see also Werts v. Vaughn, 228 F.3d 178,
192 (3d Cir. 2000) (where it would be futile to require petitioner to exhaust his claim
because there is a procedural bar to relief in state court, the claim is subject to the
procedural default rule).
The court may address a defaulted claim only if the petitioner establishes causevfor
the default and prejudice resulting therefrom, or that a failure to consider the claim will.
result in a fundamental miscarriage of justice. Werts. 228 F.3d at 192. To meet the
“cause” requirement to excuse a procedural default, a Petitioner must “show that some
objective factor external to the defense impeded counsel’s efforts to comply with the
State’s procedural rule.” Id. at 192-93 (quoting and citing Murray v. Carrier. 477 U.S.
478, 488-89 (1986)). Additionally, with respect to certain claims of ineffectiveness of
trial counsel, a petitioner can rely on post-conviction counsel’s ineffectiveness to
establish cause to overcome a default. Martinez v. Ryan. 566 U.S. 1, 14 (2012). To
establish prejudice, Petitioner must prove “‘not merely that the errors at... trial created a
possibility of prejudice, but that they worked to his actual and substantial disadvantage,

8

infecting his entire trial with error of constitutional dimensions.’” Werts, 228 F.3d at 193
(quoting Carrier. 477 U.S. at 494).
In order to satisfy the fundamental miscarriage of justice exception to the rule of
procedural default, the Supreme Court requires that a petitioner show that a
‘‘constitutional violation has probably resulted in the conviction of one who is actually
innocent.” Schlup v. Delo. 513 U.S. 298, 327 (1995) (quoting Carrier, 477 U.S. at 496).
This requires the petitioner to supplement his claim with “a colorable showing of factual
innocence.” McCleskey v. Zant, 499 U.S. 467, 495 (1991) (citing Kuhlmann v, Wilson,
477 U.S. 436, 454 (1986)). In other words, a petitioner must present new, reliable
evidence of factual innocence. Schlup, 513 U.S. at 324.
B.

Merits Review

. *■*>**•.

Under the federal habeas statute, review is limited in nature, and may only be
granted if (1) the state court’s adjudication of the claim “resulted in a decision contrary
to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States;” or if (2) the adjudication
“resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(1)(2). Factual issues determined by a state court are presumed to be correct, rebuttable only
by clear and convincing evidence. Werts. 228 F.3d at 196 (citing 28 U.S.C.
.

§ 2254(e)(1)).
The Supreme Court has explained that “[u]nder the ‘contrary to’ clause, a federal
habeas court may grant the writ if the state court arrives at a conclusion opposite to that
9

6

reached by [the Supreme] Court on a question of law or if the state court decides a case
differently than [the Supreme] Court has on a set of materially indistinguishable facts.”
Williams v. Taylor. 529 U.S. 362, 412-13 (2000). With respect to “the ‘unreasonable
application’ clause, a federal habeas court may grant the writ if the state court identifies
the correct governing legal principle from [the Supreme] Court’s decisions but
unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 413. The
“unreasonable application” inquiry requires the habeas court to “ask whether the state
court’s application of clearly established federal law.was objectively unreasonable.” Id.
at 409. As the Third Circuit has noted, “an unreasonable application of federal law is
different from an incorrect application of such law and a federal habeas court may not
**’ grant relief unless that court determines that a state-court’s incorrect or erroneous
application of clearly established federal law was also unreasonable.” Werts, 228 F.3d at
196 (citing Williams. 529 U.S. at 411).
m.

DISCUSSION
As previously noted, this case involves Petitioner’s 2009 docket conviction for

aggravated assault, possession of a controlled substance, unlawful restraint, recklessly
endangering another person, and witness intimidation. His convictions were based
largely on the testimony of the victim, who was his girlfriend, and on Petitioner’s
recorded telephone calls and letters to the victim. Grounds Ten through Seventeen of the
petition arise from this conviction, and in these claims Petitioner alleges violations of his
constitutional rights on the grounds that:

10

yf.

Counsel compelled Petitioner to be a witness against
himself,

11.

Counsel coerced and compelled Petitioner to give false
testimony,

12.

Petitioner was coerced into waiving his right to be tried by
a jury,
Petitioner did not possess the mental state necessary for
aggravated assault as a first-degree felony and counsel
was ineffective for failing to raise this issue,

14.

Trial counsel was ineffective for failing to withdraw due
to a conflict of interest,

yf.

The prosecutor elicited testimony knowing it be false,

16.

The evidence was insufficient to support the conviction
for witness intimidation as a first-degree felony, and

y[.

The Superior Court accepted en banc review on direct
appeal under, the guise of newly discovered evidence.

Doc. 1 at 25-34.7 I will first address the four defaulted claims, and then turn to the four
exhausted claims.
A.

Defaulted Claims - Grounds Ten, Thirteen, Fifteen, & Seventeen

The District Attorney contends, and Petitioner largely concedes, that four of the
claims arising from the 2009 docket conviction are unexhausted and defaulted. Petitioner
argues that the default of these claims should be excused, while the District Attorney
argues that this court is precluded from reviewing the claims on the merits. Because the

7The District Attorney also addresses Grounds Five and Eighteen in his response
on this docket. See Doc. 9. Because Grounds Five and Eighteen arise from the 2010
docket conviction, ! will address them in my Report in Civ. Action No. 18-3998.

11

ft

default analysis differs with respect to IAC claims and other claims, I will first address
the non-IAC claims.
1. Grounds Fifteen & Seventeen - Non-IAC claims
Two of Petitioner’s unexhausted claims allege violations other than
ineffectiveness of trial counsel; Ground Fifteen (prosecutorial misconduct for eliciting
knowingly false testimony) and Ground Seventeen (violation of constitutional rights
when the Superior Court granted reargument en banc). Doc. 9 at 16-22. At this point,
Petitioner has no way to obtain state court review of these claims. See 42 Pa. C.S.A.
§ 9545(b) (establishing one-year statute of limitations for filing PCRA petition); 9544(b)
(issue waived if not presented at earliest opportunity). Thus, the claims are procedurally
defaulted. So-s Werts. 228 F.3d at 192 (“claims deemed exhausted because of a state
procedural bar are procedurally defaulted”).
As previously noted, a defaulted claim can be considered if the petitioner can
show cause and prejudice. As to Ground Fifteen, Petitioner states that he raised this issue
on PCRA, although he concedes that he did not raise the issue on direct appeal or PCRA
appeal because “appellate counsel” failed to raise it. Doc. 1 at 31-32. This argument
appears to be an attempt to invoke Martinez. However, because the underlying claim
does not assert ineffectiveness of trial counsel, Martinez does not apply. See Martinez.
566 U.S. at 14. Therefore, Petitioner has not overcome the default of Ground Fifteen.
Petitioner’s only argument as to Ground Seventeen is that he did not learn of the
factual predicate underlying the claim until after the Superior Court issued its second
opinion on direct appeal, before he commenced a timely post-conviction proceeding.
12

Doc. 1 at 34. This argument does not excuse the default of this claim because claims
relying on after-acquired evidence must also be exhausted in the state courts, which
Petitioner did not do. See Edwards v. Carpenter. 529 U.S. 446, 453 (2000) (a claim
asserted as cause for procedural default of another claim can itself be procedurally
defaulted). As a result, Petitioner has failed to make a showing of cause to excuse the
default of Ground Seventeen.8
Similarly, Petitioner does not make a showing that the failure to consider these
claims will result in a fundamental miscarriage of justice. As previously noted, this
exception requires new, reliable evidence of factual innocence. See Schlup, 513 U.S. at
324. Petitioner does not present any such evidence, although, as to Ground Seventeen, he
raises a factual argument that bears mentioning.- His argument refers to recorded
telephone calls and letters between himself and the victim while he was incarcerated
following his arrest, which formed the basis for his conviction for witness intimidation.
As will be discussed in addressing Petitioner’s sufficiency claim on this count, one of the
ways the Commonwealth could prove the offense was by evidence that Petitioner offered
something of pecuniary value to the victim. Petitioner argues that the Commonwealth
improperly sought en banc review on direct appeal by arguing that Petitioner’s offer to
help the victim with tax money satisfied the pecuniary element of the. offense, even
though the Commonwealth did not make that argument to the jury, and that he did not

8In his reply brief, Petitioner includes Ground Seventeen as a claim implicating
Martinez, see Doc. 12 at 17, but he is incorrect because the claim does not assert
ineffectiveness of trial counsel.

13

ft

exhaust the claim because “[t]hese issues are after discovered where they derive from the
Superior Courts [sic] judgment EN BANC.” Doc. 1 at 34. The fact that the Superior
Court first relied on Petitioner’s statement regarding the tax money in its July 29, 2013 en
banc decision, see Super. Ct-Direct II at 8-9, does not undermine its decision. Petitioner
does not dispute that he mentioned tax money in his communications with the victim
from prison that were admitted into evidence at trial. N.T. 01/31/11 at 124, 177; Trial
Exhs. C-39, C-42 & C-43. As such, the underlying evidence does not constitute new,
reliable evidence of factual innocence, nor does the Superior Court’s action constitute
new evidence where Petitioner could have challenged the action in a subsequent
collateral proceeding.For all'the foregoing reasons, the claims raised in Grounds Fifteen and Seventeen
are defaulted and cannot be reviewed.
2. Ground Ten - LAC for compelling Petitioner to be a witness against
himself
In Ground Ten, Petitioner claims that counsel was ineffective because he
“compelled defendant to be a witness against himself.” Doc. 1 at 25. The precise factual
predicate of this claim is somewhat difficult to decipher. In the supporting facts,
Petitioner explains that between his conviction on the 2010 docket charges, in which he
represented himself, and his pending trial on the 2009 charges, counsel visited him in
prison and “'stated that if [I] agree to proceed to trial with him as my attorney, take the
stand and testify as well as plead guilty to an unrelated drug offeh[s]e[,] that the Judge
would go easy on me at sentencing....” Id. In his supporting memorandum, Petitioner

14

avers that he “never intended to take the stand” in the second trial, but that counsel
essentially coerced him into doing so by saying that Petitioner faced the likelihood of a
“long sentence” if he did not do so, and a “light sentence” if he did. Doc 8 at 16.
Petitioner also suggests that he bargained away his fundamental rights without receiving
anything in return, and invokes the Fifth Amendment privilege against self-incrimination.
Id. at 16-17.
This claim resembles but is not identical to other of Petitioner’s claims, and first I
will construe the claim to prevent overlap. To the extent this claim alleges LAC for
inducing Petitioner to take the stand and provide testimony that damaged his own case,
the claim is qualitatively indistinguishable from Ground Eleven (IAC for advising
Petitione'^that his version of that assault was not believable, thus inducing him to falsely
testify), which is addressed on the merits in section B below.9 To the extent this claim
alleges IAC for inducing Petitioner to waive his right to a jury trial, the claim is identical
to Ground Twelve which is also addressed on the merits in section B. What remains
unique to this claim is Petitioner’s assertion that his lawyer was ineffective in compelling
him to “to be a witness against himself’ by lying to him about the sentence he was likely
to receive, and as such the claim is unexhausted and defaulted. Petitioner concedes that
Ground Ten was not previously raised, arguing that PCRA counsel failed to preserve the

9The District Attorney appears to construe the claim as IAC for inducing Petitioner
to take the take the stand, and therefore subsumes its discussion of Ground Ten into the
merits discussion pertaining to Ground Eleven, which is addressed on the merits in the
next section of this Report. See Doc. 9 at 21.

15
&

claim before the PCRA court. Doc. 1 at 26. This argument, in the context of an
underlying IAC claim, implicates the exception to the rule of procedural default found in
Martinez.10
The Martinez analysis requires the court to determine whether PCRA counsel was
ineffective utilizing the familiar analysis enunciated in Strickland v. Washington. 466
U.S. 668, 688 (1984), but evaluating prejudice by determining whether the underlying
claim of ineffectiveness of trial counsel is “substantial” utilizing the standard for granting
a certificate of appealability. Martinez. 566 U.S. at 14 (citing Miller-El v. Cockerell. 537
U.S. 322, 327 (2003) (“A petitioner satisfies this standard by demonstrating that jurists of
reason could disagree with the district court’s resolution of his constitutional claims or
that jurists could conclude the issues presented >are adequate to deserve encouragement to
proceed further.”); Workman v. Sup’t Albion SCI. 915 F.3d 928, 937-38 (3d Cir. Feb. 12,
2019); Preston v. Sup’t Graterford SCI. 902 F.3d 365, 376-77 (3d Cir. 2018). If the court
finds that PCRA counsel was ineffective utilizing this analysis, then the court proceeds to
address the merits of the underlying ineffective assistance of trial counsel claim, utilizing
the full Strickland analysis. Thus, under the Martinez rubric, Petitioner will only be
entitled to relief on this claim if PCRA counsel and trial counsel are found ineffective.

10In Ground Ten, Petitioner also asserts violations of his due process and equal
protection rights. See Doc; 1 at 25. Because Petitioner never placed the state courts on
notice of claims under the due process and equal protection clauses, those aspects of the
claim are patently unexhausted and defaulted, and not subject to Martinez. Petitioner
makes no cause and prejudice argument to excuse the default of these aspects of the
claim, nor can he make a showing of actual innocence.. Accordingly, those aspects of the
claim are procedurally defaulted and cannot be reviewed by this court.
16

Nevertheless, rather than proceed through each step of the Martinez analysis, I will
address the underlying claim of ineffectiveness. See 28 U.S.C. § 2254(b)(2) (an
application may be denied on the merits notwithstanding the failure to exhaust state court
remedies).11
IAC claims are governed by Strickland, in which the Supreme Court set forth a
two-pronged test. First, the petitioner must show that counsel’s performance was
deficient. This requires showing that counsel made errors so serious that counsel was not
functioning as “counsel” guaranteed the defendant by the Sixth Amendment. Id. at 687.
Second, the petitioner must show that the deficient performance prejudiced the defense.
This requires showing that counsel’s errors were so serious as to deprive the defendant of
a fair and:reliable trial. I&-In determining prejudice, the question is whether there is a
reasonable probability that the result of the proceeding would have been different. Id. at
694; see also Smith v. Robbins, 528 U.S. 259, 284 (2000) (prejudice prong turns on
“whether there is a reasonable probability that, absent the errors, the petitioner would
have prevailed”). Counsel will not be considered ineffective for failing to pursue a
meritless argument. Real v. Shannon, 600 F.3d 302, 309 (3d Cir. 2010); McAleese v.
Mazurkiewicz, 1 F.3d 159, 169 (3d Cir. 1993).

1 because the state courts did not address this claim, the federal court applies de
novo review. See Bev v. Sun’t Greene SCI, 856 F.3d 230, 236 (3d Cir. 2017) (once
procedural default is excused, review is de novo because state court did not consider
claim on the merits).
17

6

Petitioner was represented by the same assistant public defender at both his jury
and bench trials before Judge Reinaker. Trial counsel testified at the PCRA hearing that
Petitioner was granted the right to represent himself in the jury trial (the 2010 docket
conviction), with counsel as stand-by, because he was dissatisfied with counsel’s
representation. N.T. 07/07/15 at 17-18. Counsel testified that he had been able to.get a
charge dismissed in that case, after which his relationship with Petitioner got better. Id.
at 18-19.12 After the jury trial, counsel took it upon himself to visit Petitioner in prison
and “see whether he — if he wanted representation, needed representation” in the
upcoming trial for assault and witness intimidation (the 2009 docket conviction at issue
here). Id. at 25. They discussed the evidence, including that an assault obviously
occurred and that Petitioner had made calls to the victim from prison, and Petitioner
explained his version of events, including that he was on a drug binge and became “very
physical” but did not intend to hurt the victim. Id. at 20-21. Counsel explained to
Petitioner that they could not argue that drug use negated mens rea under state law, but
rather should argue that he did not have the necessary mens rea — “that he was not
intending.to cause serious bodily injury or [had] the intention to cause serious bodily
injury.” Id at 21-22. Counsel also testified that, prior to Petitioner’s decision to waive a
jury trial, he did not have any discussion with Petitioner concerning the sentence he

12Judge Reinaker granted defense counsel’s motion to sever three charges relating
to a Turkey Hill robbery during a suppression hearing held on the 2010 docket
conviction, see N.T. 01/04/11 at 52-53 (Civ. Action No. 18-3998, Doc. 33-1 at 75), and
the three charges were subsequently dismissed as memorialized on the March 24, 2011
Sentencing Order. See Commonwealth v. Lynch. CP-36-CR-0003224-2010, Sentencing
Order (Lancaster C.C.P. Mar. 24, 2011) (Civ. Action No. 18-3998, Doc. 33-4 at 9-10).
18

would receive, or what sentence he would receive in relation to whether he waived his
rights to a jury trial or not. Id. at 22. He did not tell Petitioner to lie on the stand, but
rather to tell the truth, “to tell his side of the story.” Id. at 30-31.
The PCRA court credited counsel’s testimony, and the United States Supreme
Court has cautioned that state court credibility findings may not be redetermined on
habeas review. See Marshall v. Lonberger. 459 U.S. 422, 434 (1983) (“federal habeas
courts [have] no license to redetermine credibility of witnesses whose demeanor has been
observed by the state trial court”).13 Therefore, Petitioner cannot show that counsel acted
deficiently in advising Petitioner about how to proceed in the bench trial, particularly
given the difficult facts of the case and the strong likelihood that Petitioner would be
found guilty, and there is no evidence thatxounsel coerced Petitioner by telling him that
proceeding with a bench trial and/or taking the stand in his own defense would result in a
more lenient sentence. Moreover, as the state courts made clear in addressing other
claims, Petitioner cannot show that counsel’s actions caused prejudice where Petitioner
conceded that he attacked the victim with a baseball bat while she slept, causing injuries
to her head and body. See PCRA Ct. Op. at 9-10; Super. Ct. Op.-PCRA at 7-8.
Therefore, Petitioner is not entitled to relief on the merits of this LAC claim.

13Judge Reinaker relied on counsel’s testimony throughout his opinion, including
when it conflicted with Petitioner’s. PCRA Ct. Op. at 5-6, 6-7, 7-8, 9.
19

6

3.

Ground Thirteen: IAC for failing to argue that evidence was
insufficient to support first-degree felony aggravated assault

In Ground Thirteen, Petitioner argues that he did not possess the reckless
indifference to human life and the malicious intent necessary to support a conviction of
aggravated assault as a felony of the first degree, and that counsel was ineffective in
failing to litigate the issue. Doc. 1 at 29; Doc. 8 at 8, 26-30.14
Although Petitioner avers that he exhausted Ground Thirteen on PCRA appeal, see
Doc. 1 at 29, he is incorrect. Appointed counsel asserted the claim in the Amended
PCRA, see Amended PCRA at 113, and the claim was rejected by the PCRA court on
the merits. See PCRA Ct. Op. at 9-10. Appointed counsel thereafter failed to include the
claim in his brief to the Superior Court, which did not address the claim on PCRA, appeal.
See Super. Ct.-PCRA at 3-4. Accordingly, the claim is defaulted,15 and the
ineffectiveness of counsel on PCRA appeal does not excuse the default. See Norris v.
Brooks. 794 F.3d 401, 405 (3d Cir. 2015) (“Martinez made very clear that its exception
to the general rule ... applies only to attorney error causing procedural default during

I4To the extent that Petitioner asserts violations of his due process and equal
protection rights in connection with this claim, Doc. 1 at 29, for the reasons discussed
earlier in this section as to Ground Ten, see supra at 16 n. 10, he has failed to overcome
the default of these aspects of the claims by a showing of cause and prejudice, or that the
failure to address the claims will result in a fundamental miscarriage ofjustice.
15Courts within this district have consistently held that the failure to develop a
claim in the Superior Court or to comply with state-law requirements for argument in an
appellate brief are adequate to support a finding that a claim is procedurally defaulted.
See. e.g„ Rhoades v. Sup’t. Civ. No. 14-4321, 2015 WL 4976745, at *5 (E.D. Pa. Aug.
19, 2015) (Stengel, J., approving and adopting Report & Recommendation, Caracappa,
M.J.) (issues procedurally defaulted where they were not properly developed with
citation to authority or legal discussion).
20

initial-review collateral proceedings, not collateral appeal.”^: see also Cox v. Horn. 757
F.3d 113, 118 (3d Cir. 2014) (Martinez comes into play if “no court - state or federal would ever review the defendant’s ineffective assistance claims”).16 Petitioner has not
presented any other cause to excuse the default of this claim, nor has he presented
evidence of factual evidence of actual innocence. Therefore, Ground Thirteen is
procedurally defaulted and cannot be considered by this court.
B.

Merits - IAC (Grounds Eleven, Twelve & Fourteen)

Three of Petitioner’s four exhausted claims are IAC claims, and the fourth is a
sufficiency claim. As explained in the previous section, IAC claims are governed by
Strickland.
1. Ground Eleven - IAC for inducing false testimony
Petitioner argues that trial counsel was ineffective for .advising Petitioner to testify
falsely. Doc. 1 at 27; Doc. 8 at 18-22, 30; Doc. 12 at 19-21. According to Petitioner, he
told counsel that after the victim went to sleep he got high and later woke up by the train
tracks, and that he did not recall assaulting the victim, but that counsel persuaded him to
testify that the victim attacked him because otherwise the jury would not believe him.

l6Even were I to reach the merits of this claim, Petitioner would not be entitled to
relief. Despite facts showing that Petitioner attacked the .victim with a bat while she was
sleeping, causing injuries to her head and body, trial counsel nevertheless attempted to
argue that Petitioner-did not intend toxause-seriously bodily injury—NrTrG l/3T/That----203-07. Thus, Petitioner cannot show that counsel acted deficiently in trying to fashion a
defense in light of difficult facts. Moreover, given the nature of the assault and the
victim’s injuries, Petitioner cannot show that he was prejudiced.
21

8

N.T. 07/07/15 at 42-43 (Pet’s PCRA testimony); see also.N.T. 01/31/11 at 187-88 (Pet’s
trial testimony). Respondent counters that the claim is meritless. Doc. 9 at 26-27.
In rejecting this claim on PCRA appeal, the Superior Court stated:
Trial counsel testified at the PCRA hearing that he
never advised [Petitioner] that his story was incredible. [N.T.
7/7/15 at 21.] Trial counsel testified that he explained to
[Petitioner] that they could not argue that his cocaine use
negated his mens rea, but instead would have to argue that he
simply did not intend to hurt the victim. Mat 21-22. Again,
this advice explained counsel’s reasonable, strategic basis for
pursing the advised defense of lack of mens rea. Further,
contrary to [Petitioner’s] claim that counsel advised him to
perjure himself, counsel expressly testified that he did not tell
[Petitioner] to lie. Id. at 30. The PCRA court viewed
counsel’s testimony as credible. The PCRA court did not err
in finding [Petitioner’s] [IAC] claim lacked merit.
Pa. Super. Ct.-PCRA at 8.

. -?*».•

The determination by the state courts is neither contrary to, nor an unreasonable
application of, Strickland. Counsel testified that he could not rely on Petitioner’s
intoxication to negate mens rea under state law. N.T. 07/07/15 at 21, 33-34; see also 18
Pa. C.S.A. § 308 (“Neither voluntary intoxication nor voluntary drugged condition is a
defense to a criminal charge, nor may evidence of such conditions be introduced to
negative [sic] the element of intent of the offense, except... if it is relevant to reduce
murder from a higher degree to a lower degree of murder.”). In light of the uncontested
evidence that Petitioner struck the victim with a baseball bat, counsel’s advice to
Petitioner to argue that he did not intend to hurt the victim constituted a reasonable
defense strategy. This alone negates a finding that counsel acted deficiently in. this

22

regard.17 Moreover, although Petitioner avers that counsel knew Petitioner lied on the
witness stand, counsel testified at the PCRA hearing that he did not tell Petitioner to lie.
N.T. 07/07/15 at 30-31. As previously rioted, the PCRA court found counsel’s testimony
to be credible, and a federal habeas court is bound by such credibility determinations.
See Marshall. 459 U.S. at 434. Accordingly, Petitioner is not entitled to relief on this
claim.
2. Ground Twelve - IAC for waiving Petitioner’s right to jury trial
Petitioner next argues that trial counsel was ineffective for coercing Petitioner into
waiving his right to a jury trial. Doc. 1 at 28-29; Doc. 8 at 23-25, 30-31; Doc. 12 at 2225. Respondent counters that the claim is meritless. Doc. 9 at 27-29.
The Superior Court addressed this claim on collateral appeal:
[Petitioner] admitted he signed the waiver of his right to a
jury trial, that he understood the waiver, and that he would
not have lied to the trial court regarding that waiver. [N.T.
07/07/15 at 48.]
Further, at the PCRA hearing, trial counsel testified
that, based on the technical defense to be proffered at trial,13
he advised [Petitioner] that a bench trial, opposed to a jury
trial, may benefit [Petitioner’s] case. [NT. 07/07/15 at 2024]. This advice represents a reasonable strategic decision
taken by trial counsel.
^[Petitioner’s] version of events ... was that he injured the
victim while on a binge of crack cocaine use, but that he did
not mean to injure the victim. [N.T. 07/07/15 at 21.] Counsel
17The court need not “address both components of the inquiry if the [petitioner]
makes an insufficient showing on one.” Strickland. 466 U.S. at 697. Nevertheless, it is
worth noting that Petitioner has never contested the fact that he assaulted Ms. Romero
and, as noted, counsel argued to the jury that Petitioner did not intend to injure her, and
therefore Petitioner cannot show how he was prejudiced by counsel’s actions.

23

ft

felt that the court would be better equipped than a jury to
process the subtle differences between arguing a lack of mens
rea while [Petitioner] was intoxicated by cocaine as opposed
to a negation of mens rea by the use of cocaine, which cannot
negate specific intent in non-homicide crimes in
Pennsylvania. [See id.]
Additionally, no reasonable probability of a different
outcome exists based on [Petitioner’s] waiver of a jury trial.
The fact that [Petitioner] struck the victim with a baseball bat
was never in contention. [Petitioner] himself explained that
he “never really claimed to be - to be innocent of attacking
[his] girlfriend.” [N.T. 07/07/15 at 41.] Instead,
[Petitioner’s] tactics were designed to get him a lesser
sentence upon conviction. Id. at 41-42. Accordingly, the
trial verdict would have been guilty whether delivered by a
judge or a jury.
Pa. Super. Ct.-PCRA at 7-8.
The determination of the state courts is neither contrary to, nor an unreasonable
application of, Strickland. In support of his claim that counsel wronged him regarding
the decision to waive a jury trial, Petitioner relies on counsel’s allegedly inconsistent
testimony at the PCRA hearing. See Doc. 12 at 22. At the hearing, counsel first testified
that he and Petitioner discussed waiving a jury without identifying who proposed the
idea, N.T. 07/07/15 at 18-19, and later stated, “I think it probably would have been
[Petitioner’s] idea, because that’s not - it was not going to be something that I was going
to convince him of doing.” Id at 28. Petitioner asks the court to consider how counsel
“can one moment not know who[se] idea it was, then later say it must have been his
client’s,” arid then implies that counsel’s allegedly inconsistent testimony masks some nefarious intent. Doc. 12 at 24-25. No such intent can be gleaned from counsel’s

24

testimony, which as noted previously the PCRA court found to be credible. In light of
the PCRA court’s fact finding, it cannot be said that the state courts unreasonably
disposed of this claim.18
3. Ground Fourteen - IAC for failing to withdraw over a conflict
Petitioner next argues that trial counsel was ineffective for failing to withdraw as
counsel despite irreconcilable differences and a breakdown in communication. Doc. 1 at
31; Doc. 8 at 9-14, 30; Doc. 12 at 25. Respondent counters that the claim is meritless.
Doc. 9 at 29-30.
The Superior Court rejected this claim on collateral appeal:
Simply stated, the attorney-client relationship in the
instant matter, while strained, does not rise to the level of
irreconcilable differences that would have required counsel to
remove himself from representation. As the PCRA court
noted:
___ There-is no-question-that-[[Petitioner-]-]-and-[-t]rial — [cjounsel did not have an ideal attorney-client
relationship. At one point, their relationship
deteriorated to the point that they did not speak
much[,] and [[Petitioner]] chose to represent himself.
After that [first] trial, in which he was convicted on all
charges,[19J [t]rial [c]ounsel took it upon himself to
18In any event, to show that counsel’s deficient performance caused prejudice in
this scenario, Petitioner must “demonstrate a reasonable probability that, but for
counsel’s ineffectiveness, he would have opted to exercise” his right to a jury trial. See
Vickers v. Sup’t Graterford SCI, 858 F.3d 841, 857 (3d Cir. 2017). As the Superior
Court noted, Petitioner conceded at the PCRA hearing that he signed the waiver of his
right to a jury trial, he understood the waiver, and he would not have lied to the trial court
regarding the waiver. Pa. Super. Ct-PCRA at 7. Thus, Petitioner cannot show prejudice.
!9As previously explained, Petitioner was first convicted of burglary and related
charges in a jury trial conducted in early January 2011 (the 2010 docket conviction), a
few weeks before the bench trial at issue there. Judge Reinaker permitted Petitioner to
represent himself in the jury trial, with trial counsel as stand-by.
25
&

contact [[Petitioner]] to reconsider him as an attorney.
From there, [t]rial [c]ounsel was able to obtain a
dismissal of the convenience store robbery charges,[20]
which impressed [[Petitioner]] to the point that he
agreed to have [t]rial [c]ounsel represent him in the
non-jury trial. Further, [t]rial [c]ounsel testified that it
is not unusual for there to be cycles of good and bad
periods throughout a typical attorney-client
relationship. After considering this, it is clear that the
relationship between [t]rial [c]ounsel and [[Petitioner]]
does not rise to the level of irreconcilable differences
warranting withdrawal] of counsel.
[PCRA Ct. Op. at 8.] This was not error.
Pa. Super. Ct.-PCRA at 8-9.
The Superior Court’s determination is neither contrary to, nor an unreasonable
application of, Strickland, nor does it constitute an unreasonable determination of the
facts. Werts, 228 F.3d at-196 (citing 28 U.S.C. § 2254(e)(1)). As the PCRA court
explained, the relationship between Petitioner and counsel deteriorated to the point that
Petitioner elected to represent himself in the jury trial on the 2010 charges, but when
counsel re-contacted him following the jury trial, and having succeeded in having certain
of the 2010 charges dismissed, Petitioner agreed to have counsel represent him in the
non-jury trial on the 2009 charges. N.T. 07/07/15 at 34-36. The PCRA court reasonably
relied on counsel’s testimony regarding good and bad periods in a typical attorney-client
relationship, and it is clear from the trial transcript that counsel actively represented
Petitioner in the suppression motion and subsequent bench trial before Judge Reinaker.

20As previously explained, see supra at 18 n. 12, the convenience store robbery
charges also related to the 2010 docket conviction but were severed on defense counsel’s
motion and later dismissed.
26

N.T. 01/10/11 & 01/31/11. Moreover, for the reasons previously explained, Petitioner
cannot show that counsel’s failure to withdraw prejudiced him at trial. Accordingly,
Petitioner is not entitled to relief on this ineffectiveness claim.
C.

Merits — Sufficiency of Evidence (Ground Sixteen)

In Ground Sixteen, Petitioner argues that the evidence was insufficient to support
his conviction for witness intimidation as a felony of the first degree because the content
of his communications with the witness did not contain a threat or an offer of any
pecuniary or other benefit. Doc. 1 at 31-32; Doc. 8 at 37-43; Doc. 12 at 26-33.
Defendant counters that this claim, which Petitioner exhausted on direct appeal, is
meritless. Doc. 9 at 30-33.
• Principles of due process dictate that a person can^be convicted of a crime only if,
“after reviewing the evidence in the light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime beyond a reasonable
doubt.” Jackson v. Virginia. 443 U.S. 307, 319 (1979) (emphasis in original); see also In
re Winshin. 397 U.S. 358, 364 (1970); Sullivan v. Cuvier. 723 F.2d 1077, 1083-84 (3d
Cir. 1983). Accordingly, in reviewing challenges to the sufficiency of the evidence, a
court must determine “whether, after reviewing the evidence in the light most favorable
to the prosecution, any rational trier of fact could have found the essential elements of the
crime beyond a reasonable doubt.” Sullivan. 723 F.2d at 1083-84 (quoting Jackson. 443
U.S. at 319) (emphasis in original). Pennsylvania courts follow the same rule. See
Commonwealth v. Widmer, 744 A.2d.745, 751 (Pa. 2000) (review of sufficiency claims
requires evaluation of record “in the light most favorable to the verdict winner giving the
27

b

prosecution the benefit of all reasonable inferences to be drawn from the evidence.”);
Commonwealth v. Brewer, 876 A.2d 1181, 1185 (Pa. Super. 2000) (“Evidence will be
deemed sufficient to support the verdict when it establishes each material element of the
crime charged and the commission therefore by the accused, beyond a reasonable
doubt.”).
As explained in the procedural history, the Superior Court twice considered this
claim on direct appeal. In a first opinion dated April 30, 2012, a three-judge panel
unanimously affirmed Petitioner’s conviction for witness intimidation, but divided on the
question of grading, with the majority concluding that the evidence was not sufficient to
grade the offense a felony of the first degree. Super. Ct.-Direct at 16. After agreeing to
rehear the matter en banc, the Superior Court issued a second opinion dated July 29,
2013, in which the majority affirmed the trial court and found that the evidence supported
Petitioner’s conviction for witness intimidation graded as a felony of the first degree.
Super. Ct.-Direct II at 10. In doing so, the majority first set forth the witness intimidation
provision found at 18 Pa. C.S.A. § 4952:
(a) Offense defined.—A person commits an offense if, with
the intent to or with the knowledge that his conduct will
obstruct, impede, impair, prevent or interfere with the
administration of criminal justice, he intimidates or
attempts to intimidate any witness or victim to:
(1) Refrain from informing or reporting to any law
enforcement officer, prosecuting official or judge
concerning any information, document or thing
relating to the commission of a crime.
(2) Give any false or misleading information or
testimony relating to the commission of any crime
28

'|W.

to any law enforcement officer, prosecuting official
or judge.
(3) Withhold any testimony, information, document or
thing relating to the commission of a crime from
any law enforcement officer, prosecuting official or
judge.
(4) Give any false or misleading information or
testimony or refrain from giving any testimony,
information, document or thing, relating to the
commission of a crime, to an attorney representing
a criminal defendant.
(5) Elude, evade or ignore any request to appear or
legal process summoning him to appear to testify
or supply evidence.
(6) Absent himself from any proceeding or
investigation to which he has been legally
summoned.
(b) Grading.(1) The offense is a felony of the degree indicated in
paragraphs (2) through (4) if:

(0

The actor employs force, violence or
deception, or threatens to employ force or
violence, upon the witness or victim or, with
the requisite intent or knowledge upon any
other person.

(ii)

The actor offers any pecuniary or other
benefit to the witness or victim or, with the
requisite intent or knowledge, to any other
person.

(iii)

The actor’s conduct is in furtherance of a
conspiracy to intimidate a witness or victim.

29

b

(iv)

The actor accepts, agrees or solicits another
to accept any pecuniary or other benefit to
intimidate a witness or victim.

(V)

The actor has suffered any prior conviction
for any violation of this section or any
predecessor law hereto, or has been
convicted, under any Federal statute or
statute of any other state, of an act which
would be a violation of this section if
committed in this State.

(2) The offense is a felony of the first degree if a
felony of the first degree ... was charged in the
case in which the actor sought to influence or
intimate a witness or victim as specified in this
subsection. l21i
Pa. Super. Ct.-Direct II at 3-5. The en banc majority then rejected Petitioner’s
sufficiency claim, with reference to the reasoning of the trfal. court:
The mere act of repeatedly asking a closely-related assault
victim, likely still vulnerable in the wake of the brutal beating
he administered to her just days earlier, to refrain from
testifying against him manifested an intent to intimidate for
purposes of Section 4952(a)(1), the [trial] court reasoned.
Specifically, it found that:
The record in this case clearly demonstrates that
there was sufficient evidence to support the
guilty verdict for [18 Pa. C.S. § 4952]. In this
case, [[Petitioner]] made two phone'calls to his
victim just days after beating her with a baseball
bat and choking her. In those phone calls from
prison [[Petitioner]] specifically asked his
victim to drop the charges and not testify
against him in court. Additionally,
[[Petitioner]] sent.a letter to his victim again
pressing her not to testify against him. Through
this letter, [[Petitioner]] made it clear to his
^Petitioner’s aggravated assault conviction was graded a first-degree felony. N.T.
01/31/11 at 214.
30

victim that she was the key to him being
released from prison. After listening to the
evidence presented by the Commonwealth
regarding the brutal beating of the victim by
[[Petitioner]] and the phone calls and letter from
prison, the Court inferred from the surrounding
circumstances that [[Petitioner]] intended to
intimidate his victim so she would not testify
againsthim.
[Trial Ct. Op.] at 2-3.
[Petitioner] counters that neither an intent nor an
attempt to intimidate may be inferred from communications
showing only that he prostrated himself in-asking and even
begging his girlfriend not to testify. ... [T]he facts of each
case and the history between the actor and the witness will
determine whether such communications, without more,
qualify as “intimidation.”
Here, however, we need not make such a
determination, as the record includes additional instances in
which [Petitioner] communicates a clear offer of pecuniary
and other benefits as prohibited by the witness intimidation
statute....
.... In both phone calls and letters in which he
persistently asked and even begged his girlfriend not to show
at trial, [Petitioner] offered a more stable and rewarding
family life for her and their children in exchange for her
refusal to testify:
I propose that when I do get out (if you don’t
come to court) I could stay at my mom’s and
still help with the kids; do whatever I gotta do
and then maybe we can move with the income
tax money & start fresh....
So it’s a win-win situation for you & me & our
kids....
And I swear whatever you want me to do,
whatever you tell me to do, I will do, no
questions asked.... So please Lynda don’t let
this system swallow me up away from you &
specially my kids. If not for me, please do it for
31

e>

them. They need me out there & I need to be
there for them.
[Petitioner’s] letter, authored 10/17/09....
As made, [Petitioner’s] offer was neither too
speculative nor vague to come within the ambit of Section
4952.... [Petitioner] and his girlfriend had a family, and his
offer of providing improved household stability and financial
support for her and their children in the event she withdrew
from the case specifically targeted a parent’s basic drive to
meet core childcare needs. Though it ultimately rang hollow
with his exasperated girlfriend, his proposal was not, under
the circumstances, so preposterous that it failed to constitute a
valid offer;
Furthermore, there can be no reasonable question ...
that [Petitioner’s] promise of a tax return was both wholly
dependent upon the girlfriend’s inaction - “(if y°u don’t
come to court)” - and an offering of funds not belonging to
the girlfriend.... As such, this portion of the offer
represented a legitimate offer of pecuniary benefits as
v—•
contemplated by the statute.
We conclude, therefore, that the legislature intended
Section 4952 to address the very conduct at issue here.
[Petitioner] sought to frustrate the administration ofjustice by
offering to give the Commonwealth’s chief witness pecuniary
and other benefits if she agreed to refrain from testifying
against him....
Id. at 5-10. Accordingly, the Superior Court found that Petitioner violated section 4952,
and affirmed the judgment of sentence. Id. at 10.
The determination of the state courts is neither contrary to, nor an unreasonable
application of, Jackson. Seven of twelve members of the Superior Court found the
evidence to be sufficient,22 supporting the notion that when the evidence is viewed most

22In the panel decision, one judge concluded that the evidence was sufficient to
grade the offense a first-degree felony, whereas two did not. In the en banc opinion, six
judges found the evidence sufficient, whereas three did not. None of the judges involved
in the panel decision participated in the en banc decision.
32

favorably for the prosecution, “any rational trier of fact” could have found the essential
elements of first-degree felony witness intimidation beyond a reasonable doubt. Sullivan,
723 F.2d at 1083-84; Jackson, 443 U.S. at 319. Certainly, to the extent the discussion
reflects an interpretation of the offense under state law, it cannot be disturbed by a federal
habeas court. See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991) (“It is not the province
of a federal habeas court to reexamine state-court determinations on state-law
questions.”).
Moreover, the state courts’ decision constitutes a reasonable determination of the
facts. Petitioner argues that neither intent nor an attempt to intimidate may be inferred
from the communications with his girlfriend, in which he pleaded with her not to testify,
and that he made no pecuniary or other offer in return for her non-appearance at trial.
However, the evidence establishes that only days after he brutally beat his girlfriend with
a baseball bat and choked her, Petitioner made two collect calls from prison asking her to
drop the charges and not to show up in court to testify, N.T. 01/10/11 at 92-95, and he
subsequently sent her a handwritten letter making it clear that she was the key to him
being released from prison. Id at 99. The state courts reasonably concluded that the
mere act of a perpetrator repeatedly asking an intimately-known assault victim to refrain
from testifying against him — and doing so in the immediate wake of a brutal beating,
when the victim remains vulnerable — manifests an intent to intimidate. Additionally, in
both the phone calls and the letter, Petitioner offered her a more stable and rewarding
family life for her and their children, including financial support in the form of a tax
return. Thus, the state courts reasonably concluded that such language constituted an
33
&

offer of “pecuniary or other benefit” in exchange for her refusal to testify. Therefore,
Petitioner’s sufficiency claim fails.
IV.

CONCLUSION
Petitioner’s habeas petition is timely and raises eight grounds that arise from the

2009 docket conviction presently at issue. Grounds Thirteen (IAC for failing to argue
that the evidence was insufficient to support Petitioner’s conviction for first-degree
felony aggravated assault), Fifteen (prosecutorial misconduct for eliciting knowingly
false testimony), and Seventeen (violation of constitutional rights when the Superior
Court granted reargument en banc) are procedurally defaulted and Petitioner has failed to
overcome the default.
Ground Ten (IAC for compelling Petitioner to be a witness against himself) is
defaulted, but I nonetheless conclude on the merits that Petitioner is not entitled to relief
on this claim because he has failed to establish that his trial counsel’s representation fell
below an objective standard of reasonableness or that he was prejudiced.
Grounds Eleven (IAC for inducing false testimony), Twelve (IAC for waiving
Petitioner’s right to jury trial), Fourteen (IAC for failing to withdraw
over a conflict) and Sixteen (insufficient evidence to support Petitioner’s conviction for
first-degree felony witness intimidation) do not entitle Petitioner to habeas relief and
should be denied on the merits.
Accordingly,-1 make the following:

34

R E C O M M END ATION
AND NOW, this 13th

day of December 2019, IT IS RESPECTFULLY

RECOMMENDED that the petition for writ of habeas corpus be DENIED. There has
been no substantial showing of the denial of a constitutional right requiring the issuance
of a certificate of appealability. Petitioner may file objections to this Report and
Recommendation. See Local Civ. Rule 72.1. Failure to file timely objections may
constitute a waiver of any appellate rights.

BY THE COURT:
/s/ELIZABETH T. HEY
ELIZABETH T. HEY, U.S.M.J.

35

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-3099

CALVIN B. LYNCH,
Appellant
v.
SUPERINTENDENT ROCKVIEW SCI;
ATTORNEY GENERAL PENNSYLVANIA;
DISTRICT ATTORNEY LANCASTER COUNTY

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 5-18-CV-04924)
District Judge: Honorable Timothy J. Savage

SUR PETITION FOR REHEARING

Present: JORDAN, KRAUSE, and PHIPPS, Circuit Judges
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court, and no judge
who concurred in the decision having asked for rehearing, the petition for rehearing by
the panel is denied.
BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge
Date: May 5, 2021
Andrew J. Gonzalez, Esq.
CJG/cc:
Ronald Eisenberg, Esq.
Calvin B. Lynch

Aeeei^\x c.

Case 5:18-cv-04924-TJS Document 19 Filed 08/11/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

CALVIN B. LYNCH
v.

SUPERINTENDENT GARMAN and
THE ATTORNEY GENERAL OF
THE STATE OF PENNSYLVANIA

NO. 18-4924

ORDER
NOW, this 11th day of August, 2020, upon consideration of the Petition Under 28
U.S.C. § 2254 for Writ of Habeas Corpus by a Person in State Custody (Document No.
1), the response to the Petition for Writ of Habeas Corpus, the Report and
Recommendation filed by United States Magistrate Judge Elizabeth T. Hey (Document
No. 13), and the petitioner’s objections to the Report and Recommendation, and after a
thorough and independent review of the record, it is ORDERED that:
1.

The petitioner’s objections are OVERRULED;

2.

The Report and Recommendation of Magistrate Judge Elizabeth T. Hey is

APPROVED and ADOPTED;
3.

The Petition for Writ of Habeas Corpus is DISMISSED; and,

4.

There is no probable cause to issue a certificate of appealability.

/s/ TIMOTHY J. SAVAGE J.

Additional material
from this filing is
available in the
Clerk's Office.

